1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Zachary C. Schauf
Tel +1 202 637 6379
ZSchauf@jenner.com

September 17, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Oklahoma v. Hathcoat, No. 21-253
Dear Mr. Harris:
I represent Respondent in the case referenced above. Petitioner Oklahoma filed petition for a writ
of certiorari on August 16, 2021, and this matter was placed on the docket on August 20, 2021.
Respondents’ response to the petition is due on September 20, 2021. Pursuant to Supreme Court
Rule 30.4, I write to request a thirty (30) day extension of time to file a response to the petition in
this case.
In light of the press of other business, counsel requires additional time to fully respond to the
arguments presented in the petition. Moreover, counsel for Oklahoma has informed Respondent
that it intends to file a new petition that may bear on the petition in Respondent’s case. In
particular, Oklahoma’s petition in Respondent’s case relies on arguments Oklahoma made in
Oklahoma v. Bosse, No. 21-186, which has now been voluntarily dismissed. This week, Oklahoma
informed counsel for Respondent that it intended “to file a new petition in a different case by the
end of this week that will again fully set forth its arguments for why certiorari should be granted
in that new petition, as well as other pending petitions presenting the same issues, including your
case.” Hence, counsel for Respondent requires time to review the arguments made in that new
petition.
For these reasons, I respectfully request a thirty (30) day extension of time, until October 20, 2021,
to file a response to the petition.
Sincerely,

/s/ Zachary C. Schauf
Zachary C. Schauf

CHICAGO

LONDON

LOS ANGELES

NEW YORK

S AN FRANCISCO

W ASHINGTON, DC

WWW.JENNER.COM

